<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 115-107]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

         ARMY FISCAL YEAR 2019 BUDGET REQUEST READINESS POSTURE

                               __________

                              HEARING HELD
                             APRIL 19, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-694                    WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Andrew Warren, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Megan Handal, Clerk
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Anderson, LTG Joseph, USA, Deputy Chief of Staff, G-3/5/7, U.S. 
  Army...........................................................     3
Kadavy, LTG Timothy, USA, Director, Army National Guard, U.S. 
  Army...........................................................     5
Luckey, LTG Charles, USA, Chief of Army Reserve, U.S. Army.......     6
Piggee, LTG Aundre, USA, Deputy Chief of Staff, G-4, U.S. Army...     4

                               
                               APPENDIX

Prepared Statements:

    Anderson, LTG Joseph, joint with LTG Aundre Piggee, LTG 
      Timothy Kadavy, and LTG Charles Luckey.....................    30
    Wilson, Hon. Joe.............................................    29

Documents Submitted for the Record:

    Army EDI Information Paper...................................    45

Witness Responses to Questions Asked During the Hearing:

    Mr. Brown....................................................    49

Questions Submitted by Members Post Hearing:

    Mr. Scott....................................................    53
    
.    
         ARMY FISCAL YEAR 2019 BUDGET REQUEST READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                          Washington, DC, Thursday, April 19, 2018.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Ladies and gentlemen, good morning. The 
Subcommittee of the House Armed Services Committee of Readiness 
will come to order. I welcome you to this hearing of the House 
Armed Services Committee Readiness Subcommittee on the United 
States Army readiness posture.
    Today the subcommittee will hear from four Army senior 
leaders regarding their service's fiscal year 2019 budget 
request in correlation to current and future readiness across 
the total Army.
    We are grateful to have the Regular Army component, the 
Army National Guard, and Army Reserve so superbly represented. 
And I was grateful to point out to each that I have served in 
the Regular Army, the Guard, and Reserve. So I am particularly 
grateful to be here with you. You truly embody the integration 
of the total Army.
    I want to take this opportunity to sincerely thank our 
witnesses for their service. A combined 144 years of service is 
seated before us today.
    Specifically, I would like to explore the shortfalls, gaps, 
and critical challenges that lie ahead as you continue to 
implement the Army's readiness recovery plan. We also want to 
recognize the progress achieved thus far and gain a better 
understanding of how the fiscal year 2019 budget request 
enables critical warfighting capabilities and life-cycle 
sustainment. Ultimately, how does this budget request support 
the Army mission and those men and women who wear the uniform 
and are in harm's way.
    The fiscal year 2019 base and overseas contingency 
operations budget request for total Army operation and 
maintenance includes $70 billion, an approximate $4 billion 
above the fiscal year 2018 National Defense Authorization Act 
[NDAA] amount.
    We appreciate the Army's prioritization of readiness and 
efforts to train towards decisive action capabilities, 
increased global posture and capacity and lethality to defeat 
the threats identified in the National Defense Strategy [NDS], 
but we recognize there is more work to be done. It is our 
responsibility as members of the subcommittee to understand the 
readiness situation and how the budget request impacts the Army 
in correcting deficiencies and restoring the capabilities this 
Nation needs.
    President Ronald Reagan frequently used the term ``peace 
through strength.'' I agree with President Reagan and believe 
we must maintain a high state of readiness across our armed 
services in order to achieve that goal, as also has been 
restated by President Donald Trump.
    Needless to say, we have a lot of ground to cover this 
morning. I look forward to hearing from our witnesses today on 
varying aspects of Army readiness and concrete ways this 
committee can help.
    Before I introduce the witnesses, I turn to Ranking Member 
Congresswoman Madeleine Bordallo, distinguished lady from Guam, 
for opening comments she would like to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 29.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And a warm ``hafa adai'' to all of the witnesses, since 
most of you have been on Guam. I want to thank you for 
testifying here today and thank you all for your leadership 
within your respective organizations as well as your service to 
our great Nation.
    I especially look forward to the service posture hearings 
and hearing from leaders within the various branches on your 
plans for the coming years, the challenges that you face, and 
how we, the Members of Congress, can help you surmount these 
challenges.
    And I do realize that we have had to reschedule this 
hearing several times over the past couple of months, and I 
appreciate the witnesses being flexible and making themselves 
available to be here today.
    Restoring our military's readiness has been identified as a 
priority for the Department of Defense as well as for this 
subcommittee. At previous hearings, I have expressed concern 
with the other service budget request and their focus on 
modernization accounts rather than the operations and 
maintenance accounts that support training, maintenance, and 
building blocks for military readiness.
    However, I am pleased to see the Army's budget request 
appears to reflect some increases in the operations and 
maintenance accounts over and above the fiscal year 2018 
levels. That being said, I still have questions on the Army's 
budget request, and I look forward to hearing specifically how 
this budget will support the Army's readiness recovery.
    I note that the Army's unfunded requirements list did not 
include items related to training, maintenance, or near-term 
readiness recovery. So this suggests that you believe the 
budget request fully resources your near-term readiness 
recovery plans.
    However, given the readiness shortfalls driven by 
sequestration and budget uncertainty, I wonder if the Army 
would be able to expend additional resources for depot 
maintenance, supply, training, and other key readiness-enabling 
accounts in fiscal year 2019.
    This committee wants to support your efforts to rebuild 
readiness and recover from the budget uncertainty caused by 
sequestration and continuing resolutions. So we do hope that 
today's hearing helps provide more details on the Army's near-
term and long-term readiness recovery plans as we move toward 
markup of the fiscal year 2019 NDAA.
    So, again, welcome to you all, and I look forward to your 
testimony.
    Mr. Chairman, I yield back.
    Mr. Wilson. And thank you, Congresswoman Bordallo.
    I am pleased to recognize our witnesses today. I want to 
thank them for taking the time to be here with us.
    We have Lieutenant General Joseph Anderson, the Deputy 
Chief of Staff, G-3. We have Lieutenant General Aundre Piggee, 
the Deputy Chief of Staff. We are grateful to have Lieutenant 
General Timothy Kadavy, the Director, Army National Guard; and 
Lieutenant General Charles Luckey, the Chief of Army Reserve.
    And before I begin, I would like to remind each witness 
that we have your written statement that has been submitted for 
the record, and if you could summarize your comments to 5 
minutes or less. And then we will proceed to members asking 
questions. Thank you very much.
    Beginning with General Anderson.

 STATEMENT OF LTG JOSEPH ANDERSON, USA, DEPUTY CHIEF OF STAFF, 
                       G-3/5/7, U.S. ARMY

    General Anderson. Chairman Wilson, Ranking Member Bordallo, 
distinguished members of the subcommittee, thanks for the 
opportunity to testify on the readiness of the U.S. Army. And 
thanks to all of you for your continued support and 
demonstrated commitment to our soldiers, civilians, families, 
and veterans.
    Today, your Army remains globally engaged, with over 
187,000 trained and ready soldiers committed to meeting 
combatant command deterrence and counterterrorist requirements.
    This demand falls disproportionately on the Army. We meet 
50 percent of the combatant command base demand and 70 percent 
of emergent demand. To maintain this tempo and sustain 
readiness at levels required to support contingency plans, the 
Army must accept risk in end strength, capable capacity, 
sustainment, and modernization.
    Readiness for ground combat is and will remain the Army's 
first priority. Our Army is focusing resources to maximize 
readiness and those units most likely to respond to possible 
contingencies around the world. We are also focusing on the 
increasing integration of the Army National Guard and the Army 
Reserve.
    We appreciate the bipartisan effort that produced the 2-
year budget agreement for fiscal years 2018 and 2019. That type 
of certainty must continue well into the future so that we can 
effectively plan and align our resources with our top 
priorities.
    The National Defense Strategy focuses on the return of 
great power competition, where the Army will face a more 
technically capable adversary on a more lethal battlefield. The 
Army is expanding, building, and manning new units to meet the 
demand for areas such as security force assistance, cyber and 
EW [electronic warfare] capabilities, and piloting new 
operating concepts such as the new Multi-Domain Task Force.
    We appreciate the opportunity to grow the Army to 1.025 
million soldiers. I look forward to continuing to work with 
Congress to ensure that the young men and women who make 
extraordinary sacrifices on behalf of our Nation are not sent 
into harm's way without being given what they need to be ready.
    I look forward to answering your questions. Thanks again 
for your time and attention.
    [The joint prepared statement of General Anderson, General 
Piggee, General Kadavy, and General Luckey can be found in the 
Appendix on page 30.]
    Mr. Wilson. General Anderson, thank you very much.
    And General Piggee.

 STATEMENT OF LTG AUNDRE PIGGEE, USA, DEPUTY CHIEF OF STAFF, G-
                          4, U.S. ARMY

    General Piggee. Chairman Wilson, Ranking Member Bordallo, 
and members of the committee, I appreciate this opportunity to 
testify today.
    I echo General Anderson's comments. Your support is 
essential for readiness, and the Army needs it more now than 
ever. Efforts like the 2-year bipartisan budget agreement are 
game changers for readiness and future planning, but 2 years 
won't get us where we need to be. This predictability has [to] 
become the norm.
    The Army is thinking ahead now. As you just heard from 
General Anderson, the Army is doing a lot. As the Army G-4, it 
is my job to predict what soldiers will need, where they will 
need it, and how much to give them to make sure they can do all 
of those things that General Anderson spoke about.
    We are looking at where to preposition our most critical 
equipment for the beginning of a conflict and how to maintain 
and store it to be ready for combat within hours.
    We are assessing our industrial base and looking at our 
skills of our workforce and what skills that they require, the 
infrastructure and equipment in our facilities, and thinking 
about how we should modernize to meet future demands.
    We are making progress to ensure we have enough of our 
preferred munitions in the right places, but there is more work 
to be done. We are working with our industry partners to ensure 
our supply chain is responsive and capable to meet our needs. 
And we are maintaining our equipment in a higher state of 
readiness to meet higher OPTEMPO [operations tempo] demands.
    None of this is possible without the ability to plan ahead. 
We are committed to being ready, but we need your support to 
make that happen.
    Thanks again for this opportunity to testify today and your 
continued support for our soldiers and our families, and I look 
forward to your questions. Thank you.
    Mr. Wilson. Thank you very much, General.
    And now we proceed to General Kadavy.

 STATEMENT OF LTG TIMOTHY KADAVY, USA, DIRECTOR, ARMY NATIONAL 
                        GUARD, U.S. ARMY

    General Kadavy. Good morning, Chairman Wilson, Ranking 
Member Bordallo, distinguished members of the subcommittee. 
Thank you for the opportunity to discuss the total Army 
readiness.
    On behalf of the 343,500 Army National Guard soldiers, we 
thank you especially for your strong support and unwavering 
commitment to our soldiers, their families, our wounded 
warriors, and especially the families of those who have made 
the ultimate sacrifice.
    Your Army National Guard is mobilized today with more than 
19,000 soldiers supporting combatant commanders both overseas 
and in the homeland. Before the end of this fiscal year, we 
anticipate mobilizing a total of more than 24,000 Army National 
Guard soldiers for high-profile United States Army missions, 
including Operation Spartan Shield in the Middle East and the 
enhanced forward posture mission in Europe.
    Here at home, we currently have approximately 3,800 Army 
National Guard soldiers supporting Governors and States, as 
well as, as we have all heard in the news recently, an 
additional 951 Army National Guard soldiers recently called to 
duty on the southwest border.
    Readiness continues to be our number one priority. 
Everything we do must support this priority. After losing 
readiness to budget reductions, repeated continuing 
resolutions, and a drawdown in end strength, the Army National 
Guard, with your help, is now on a solid path to recover this 
lost readiness.
    We continually build readiness through balanced manning, 
training, and equipping strategies. Our modernization efforts 
nested with the Army's plan include recapturing readiness 
through modernizing our mission command systems, air defense 
artillery, Humvees, tanks, and aircraft.
    Full-time support personnel continue to be the number one 
most critical contributors to both individual and unit 
readiness in the Army National Guard. Our full-time personnel 
perform vital mandatory missions, from training and 
administrative support to supply and maintenance of our 
critical platforms within the Army National Guard.
    These hardworking soldiers are truly the foundation that 
makes us the most capable, best prepared combat reserve force 
in the world. Without these dedicated full-time-serving 
soldiers, we would simply not achieve the readiness required by 
the Army and by the Nation.
    Individual readiness includes professional military 
education, medical and dental readiness, and individual weapons 
qualification.
    With almost half of the Army's combat structure residing in 
the Army National Guard, our enhanced readiness initiatives 
will render the Army, in our view, sufficiently responsive to 
national defense needs.
    We thank the committee for our increase in our end strength 
of 343,500. This allowed the Army National Guard to increase 
our readiness enhancement account created in the fiscal year 
2017 NDAA, allowing us to focus on our high-priority units.
    We are also grateful that in the fiscal year 2019 budget it 
includes the growth of 441 additional recruiters to fill 
positions in our community-based Army National Guard across the 
Nation.
    This year, we begin to recapture readiness and improve 
lethality by implementing the foundational elements of Army 
Guard 4.0, thanks to strong support from Congress, the 
Secretary of the Army, the Chief of Staff of the Army, and the 
Chief of the National Guard Bureau, and all 54 of our adjutant 
generals.
    In our efforts to reclaim lost readiness in fiscal year 
2017, we went to a 4-year training model for armored brigade 
and Stryker brigade combat teams and other urgent formations. 
This year, we will double our combat training center rotations 
from two to four. And at the end of this fiscal year, September 
30, more than 30,000 Army National Guard soldiers will have 
trained at the United States Army's premier training centers 
during this fiscal year.
    We have also increased the money for professional education 
for our commissioned officers and our noncommissioned officers.
    Overall, this readiness strategy will require additional 
training days for many of our soldiers.
    Your support keeps the Army National Guard warfighting-
capable and Governor-responsive. In short, we are part of the 
Army's operational force, and we greatly appreciate all you 
have done to support us.
    Thank you for allowing me to speak here today. And thank 
you for all that you do for our citizen soldiers, their 
families, their employers, and the civilians of the Army 
National Guard. I look forward to your questions.
    Mr. Wilson. Thank you very much, General.
    We now proceed to General Luckey.

 STATEMENT OF LTG CHARLES LUCKEY, USA, CHIEF OF ARMY RESERVE, 
                           U.S. ARMY

    General Luckey. Chairman Wilson, Ranking Member Bordallo, 
and distinguished members of the committee, thank you for the 
opportunity to appear before you this morning.
    It is an honor for me to represent the some 200,000 
soldiers and civilians of America's Army Reserve who serve, as 
I speak, in 20 time zones around the world. And on behalf of 
them and their families, I want to thank each of you for your 
support.
    With a presence in 50 States, 5 U.S. territories, and 30 
countries around the world, your Army Reserve is becoming the 
most capable combat-ready and lethal Federal reserve force in 
the history of the United States of America.
    Over the past year, we have continued to refine our Ready 
Force X [RFX] construct as the driver and intellectual forcing 
function for all aspects of manning, training, and equipping 
our formations and deploying key capabilities on compressed 
timelines. As I tell our troops, RFX is a verb, not a noun.
    At its core, Ready Force X does two things. First, it is a 
way of seeing ourselves as a force from a readiness perspective 
with high fidelity within the context of Joint Staff-validated 
war plans. It enables us to prioritize activities and target 
policies to get after manning, training, and equipping 
formations, and early deploying capabilities prior to 
mobilization. In essence, it anticipates and prioritizes what 
needs to be done first in order to dramatically reduce post-
mobilization timelines.
    Second, it forces commanders at echelon to realistically 
assess the amount of time they will need to finalize the 
preparation of their units for combat post-mobilization and to 
commit to timelines that are measured in days and weeks. This 
is essential because it enables us to articulate and mitigate 
both risk to mission and risk to force by clearly assessing the 
criticality of mobilizing, making mobilization decisions well 
before we expect some units to arrive in theater fully combat-
ready.
    As America's Army Reserve becomes more capable and ready 
over time, we also remain consistently ready for our Defense 
Support of Civil Authorities missions and responsibilities here 
in the homeland at a moment's notice.
    Last year, leveraging its immediate response authority, 
your Army Reserve conducted hundreds of missions to evacuate 
and rescue thousands of citizens in need, to transport 
emergency responders and airlift lifesaving medical supplies, 
to generate power, purify water, open ports and clear roads, 
delivering food, water, and supplies in support of operations 
responding to [hurricanes] Harvey, Irma, and Maria.
    That said, readiness remains this team's number one 
priority. We are well on our way to more than doubling down on 
last year's production of Operation Cold Steel--at that time, 
our largest crew-served weapons gunnery exercise in the history 
of the United States Army Reserve. This year, Cold Steel II, 
conducted over 9 months at multiple locations, triples the 
throughput of our key enablers' key capabilities and increases 
the scope, complexity, and throughput of complex formations as 
they aggressively produce readiness for America's Army. From 
1908 until today, America's Army Reserve has never done what it 
is doing now to get formations ready to go to combat.
    As we look to the future, your Army Reserve continues to 
assess shifting demographics in emerging markets as we position 
and posture structure to ensure that we continue to leverage 
and share the best talent in America with employers across the 
Nation.
    Targeting in some cases digital key terrain, your Army 
Reserve is driving to exploit its Private Public Partnership 
program to develop and expand unique employment relationships 
with the private sector as a screening force for the Army.
    Creating new structure and moving it to key regions to gain 
and retain talent in areas such as cyber operations, quantum 
computing, and artificial intelligence, your Army Reserve team 
works closely with the Defense Innovation Unit-Experimental--
that is, the DIUx--and MD5--that is the Military District 5 
here in Washington with the Department of Defense--and other 
critical defense-oriented industries. This initiative is 
already well underway and bearing fruit.
    In closing, I encourage each of you to continue to reach 
out to the communities, cities, campuses, and employers in your 
districts and to influence the influencers with the sound of 
your voice. Let them know that we appreciate their full 
partnership in the national security of the United States of 
America. They are sharing the best talent in the world with 
America's Army Reserve. We could not generate the capability 
that we do for the Nation without their continued and sustained 
support. It is essential if we are going to continue to be 
ready enough to be relevant but not so ready that our soldiers 
are unable to keep good, meaningful civilian jobs and healthy, 
sustaining family lives.
    On behalf of my entire team, we appreciate you, your 
support, and your leadership. I look forward to your questions.
    Mr. Wilson. Thank you very much, General Luckey.
    And we will proceed now. And Drew Warren, our professional 
staff member, will maintain the 5 minutes for each person, 
beginning with me.
    So, at this time, first of all, I want to thank each of 
you, but, General Luckey, when you were referencing hurricane 
recovery and relief, how important that is. We see how 
important it is in Puerto Rico and the Virgin Islands, the 
Caribbean, certainly the catastrophic effects to the hurricanes 
on the East Coast and the Gulf Coast. So there is such an 
emphasis on overseas operations, but domestically, how 
important it is.
    And I am really grateful for the leadership of President 
Trump, to have National Guard personnel on the border to reduce 
drug trafficking, the potential of terrorists crossing, human 
trafficking, how important that is, and I am really grateful. 
One of my sons served in the Army Guard on the border at 
Arizona, and he told me how helpful it was to back up to the 
Border Patrol and how effective this can be. So, over and over 
again, we can see a potential positive, domestically and 
overseas.
    General Anderson, what is the status and planned timelines 
for the six security force assistance brigades? And how has the 
Army ensured that the first of these units was sufficiently 
manned, trained, and equipped for deployment to Afghanistan, 
particularly given the accelerated schedule?
    General Anderson. Thanks, Chairman.
    Well, the good thing is they were originally supposed to go 
in November and they ended up going in February. So, if we had 
really had to get them out the door by November, we would have 
been challenged from a manning, equipping, and training, 
because their validation exercise at Fort Polk wasn't until 
January.
    So the good news is, Congressman, they are on the ground. 
They are out in about 36 different locations supporting both 
kandaks [Afghan National Army battalions], brigade and corps 
headquarters, institutional training sites, and NSOC Alpha 
[NATO Special Operations Component Command Afghanistan]. So 
they are very well-dispersed. We will start to get feedback on 
how they are doing here soon, because they have been out about 
a week now.
    Number two is being stood up at Fort Bragg. That should be 
fully up and running by summertime. And then number three, at a 
location to be determined, we will start this up this summer 
and should be finalized by the fall.
    So the first three will be done by the end of calendar year 
2018, and then we will work on four and five in the Active 
Component in 2019, and we will work on the Guard in 2019.
    Mr. Wilson. Thank you very much.
    And, General Piggee, I was very pleased as you were 
referencing the recent budget predictability, the ability to 
plan ahead, the leadership of President Donald Trump. Secretary 
James Mattis, what a positive influence. And then someone that 
we appreciate, who we will miss, is Speaker Paul Ryan. He truly 
was impacted by different briefings that have been provided to 
him, and his leadership made it possible for the budget to 
pass.
    Can you, General, please discuss the current and future 
plans for modernization command? And do you see any potential 
friction between the leadership within the modernization 
command and existing commands?
    General Piggee. Thank you for your question. And, again, we 
really appreciate your support in the past and as we go 
forward.
    I think that the modernization command will be an extension 
of the readiness challenges and be focused more on what those 
specific requirements are as they look to assist in acquisition 
reform and modernization of specific pieces of equipment.
    And I think it fills a seam and a gap that we have not had 
in previous organizational structure, as we had multiple 
organizations touching various aspects of a life cycle of a 
piece of equipment. With this Futures Command, I think we will 
have from grave to cradle--or cradle to grave. We will have one 
organization responsible for overall acquisition of that 
process.
    So I think it will be much more efficient and effective as 
we go forward.
    Mr. Wilson. Well, we appreciate your leadership very much.
    And a final question, General Anderson. One of the 
highlights of my life was, last August, to lead a delegation to 
Bucharest, Romania, to Sofia, Bulgaria, to Vilnius, Lithuania, 
to Riga, Latvia, to Tbilisi, Georgia, to Zagan, Poland, to see 
the liberation of these countries. It is due to the American 
military that the countries that I visited, each one, is free 
and the people are living in freedom today.
    One of the highlights, I was with my son, who is an 
engineer in the Army Guard, and he arranged for a fellow 
graduate of U.S. Army Engineer School to meet us, a captain in 
the Lithuanian Army. Who would ever imagine in our lifetime? So 
thank you for your success.
    And just a concern, though, that I have is the 
infrastructure of Central and Eastern Europe. And working 
together with the European Union, NATO [North Atlantic Treaty 
Organization], with the host countries, what do you see is the 
effort being made for the infrastructure, for the health and 
safety for everyone?
    General Anderson. The good news is, Chairman, that Poland 
desires to make about a $2 billion investment in their 
infrastructure.
    As you know if you went to the camp there where our brigade 
headquarters is, the barracks, the motor pool, and those 
conditions are a little not to our standards. But we knew that, 
because we knew the enhanced forward presence was going to be 
an expeditionary--it wasn't going to be like the FOBs [forward 
operating bases] you have been on in Iraq and Afghanistan.
    So, over time, the goal will be to build that capability to 
support our--we are not looking for forward presence. We are 
looking for continued rotational capability from the heel-to-
toe brigade for Operation Atlantic Resolve and sustaining the 
Enhanced Forward Presence Battle Group--is the NATO terminology 
with that battalion, with a British infantry company, a 
Romanian air defense company, and a Croatian special forces 
asset. So it is a very good package.
    Mr. Wilson. And I have seen the development of the M.K. 
[Mihail Kogalniceanu] Air Base----
    General Anderson. Yes.
    Mr. Wilson [continuing]. In Romania--remarkable----
    General Anderson. Yes.
    Mr. Wilson [continuing]. And Novo Selo in Bulgaria. To see 
young Bulgarians and Americans working together, how inspiring.
    I now yield to Congresswoman Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Lieutenant General Anderson, this question is for you. As I 
said in my opening statement, I am interested to hear your 
assessment of the fiscal year 2019 budget request given the 
readiness shortfalls that the Army has faced.
    So, in your professional opinion, if additional funding was 
made available for operations and maintenance, do you believe 
the Army has areas where additional resources for these 
accounts would help accelerate readiness recovery? And can you 
please give an example?
    General Anderson. Yes, ma'am.
    The key on the O&M [operations and maintenance] funding you 
are talking about with respect to readiness is a function of 
maintaining our CTC [combat training center] rotations. So it 
is 19 a year this year. It goes to 20 a year next year. And we 
are trying to get repetitive, to get brigades back through 
there more than just once a year.
    So that glide path from the validation exercise to enhanced 
home station training and an enhanced exercise program will 
help us keep recovering, like we are. A year ago right now, we 
had two brigades fully ready. Well, it is four times that much 
now. So that is great improvement over the course of the year.
    The other part that I think you are referencing would be 
also all the maintenance piece. This is about having the parts 
as we try to enhance our readiness rates and modernization. 
Those have both fallen behind. But if we can have more standard 
stockage lists and have them all around the country, available, 
to reduce shipping times and parts to put on the vehicles, 
aircraft, et cetera, that is where that money would come, more 
investment in those types of things.
    Ms. Bordallo. Good. Thank you, General.
    My second question is for General Kadavy. And this is the 
National Guard, of course.
    When you last visited me, you mentioned that the Guard was 
still evaluating a proposal to have the Guam National Guard 
assume some portion of the THAAD [Terminal High Altitude Area 
Defense] mission.
    I recently spoke with the Chief of Staff of the Army, and 
he thought it made sense to have the Guam Guard support the 
mission and allow the Army to save money by not having to 
deploy other units from their home station, many thousands of 
miles, to perform tasks that the Guam Guard was perfectly 
capable of assuming. In this way, the Army would not have to 
find housing for the families--some are with families--the cost 
of travel, and other expenses.
    So what is the status of your assessment? And can you find 
someone that can come by my office and update me on the 
findings?
    General Kadavy. Well, hafa adai, Congresswoman.
    Ms. Bordallo. Hafa adai.
    General Kadavy. We agree with you. We are in the process of 
running through the analysis to determine which pieces of that 
particular mission fits squarely into the structure and end 
strength that the Guam Army National Guard----
    Ms. Bordallo. I think we had the security, General, right?
    General Kadavy. Right. Security, maintenance, supply, 
logistics are certainly things that reside in Guam. And, 
between us and the G-3, we are working diligently to determine 
what that need is so that we can move it forward.
    And we would be more than happy to come by and give you an 
update on that, Congresswoman.
    Ms. Bordallo. In my opinion, it would be a great savings, 
because right now we are bringing them in from the States.
    General Kadavy. Right, a great savings, but just a 
tremendous way to continue to develop readiness in our Guam 
Army National Guard, as well, Congresswoman.
    Ms. Bordallo. That is right.
    Lieutenant General Anderson, my next question is for you. 
The Army Chief of Staff has called on the Army to prepare for 
war on the future battlefield and move away from the focus on 
counterinsurgency operations that have consumed the Army's 
focus for the last two decades.
    Can you give examples of how the Army will leverage this 
year's budget request in regards to training to ensure soldiers 
continue to be prepared to meet global counterterror operations 
while pivoting to fulfill General Milley's intent?
    General Anderson. Yes, ma'am. We are still required to 
perform the CT [counterterrorism] mission. That won't go away, 
principally because of Iraq, Afghanistan, and places like 
Syria.
    But what you are talking about is how do we--as I mentioned 
the combat training center rotations a little while ago, these 
become full-spectrum rotations, which means--and the other term 
you will hear is ``decisive action,'' whether it is a combined-
arms maneuver, wide-area security. But this is air-ground 
integration, this is fires, this is obstacle belts, so 
electronic warfare, cyber, information operations, things that 
we hadn't done out there in years, where you actually shut down 
a network and that brigade has to actually maneuver without 
radios.
    So that is what the chief has told us to do, make these as 
hard as we can against near-peer/peer competitors like Russia, 
like China, like North Korea, and be able to fight on that kind 
of a battlefield. And that is exactly what is happening in home 
stations, training centers. And our exercises are designed 
exactly the same way.
    Ms. Bordallo. Well, good. That answers my question.
    And, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Congresswoman Bordallo.
    We now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    General Piggee, Chairman Wilson mentioned Futures Command. 
It is my understanding that Atlanta is a finalist on the list 
that is yet to be--I don't think the final determination has 
been made yet of where that Futures Command will be. But I want 
to point out that there is uniform support from every Georgia 
Member for putting that Futures Command in Atlanta, and 
certainly we would love to have it there. The Army has been 
good to Georgia, and I think Georgia has also been good to the 
Army, and look forward to expanding that relationship, if 
possible.
    General Piggee. Thank you, Congressman. I concur. And I do 
believe, just recently, the Under [Under Secretary of the Army] 
released the list of the 15 potential candidates, and I think 
Atlanta was one of that 15. I know that the G-3 was talking 
about in Georgia recently--I was in there last month, and my 
daughter lives in Atlanta.
    Mr. Scott. Ah. Great.
    General Piggee. I went to college there. So I am well aware 
of all of the ambience and capability that exists, technology 
that exists in that great State and in Atlanta in particular. 
And I am sure that it will get its due rigorous evaluation as 
we review all of the potential candidates.
    Mr. Scott. So which school was she at?
    General Piggee. She went to Clark Atlanta.
    Mr. Scott. Well, there are a tremendous number of great 
institutions in Atlanta, and certainly glad you were there.
    I know, General Anderson, you were also at Benning this 
week. First Security Forces Brigade was set up there. I hope 
that the third potentially can come to Fort Stewart. I would 
love to have that there.
    And my question on the security forces brigades is, can you 
kind of speak to the differences in the organizations of the 
security force brigade versus traditional brigade combat team 
and how they are aiding in our readiness as a Nation as a 
whole?
    General Anderson. Sure, Congressman.
    The SFAB [security force assistance brigade] is structured 
off of an infantry brigade combat team table of organization, 
so it is 816 people. It has the entire structure of a brigade, 
E-5 and above. There are no lieutenants, and there are no E-4s 
and below. And they are capable of manning 36 12-man maneuver 
adviser teams.
    So, as we are employing them over there right now, they are 
pretty much being employed as we design them but not 
necessarily totally, because some of them are doing 
institutional, and some of them are supporting special 
operations teams over there as well. So we will see at the end 
if we have to make any modifications as we build the second and 
third.
    And, as you know, Congressman, the goal was, once these 
SFABs got employed over there, it would relieve--back to your 
readiness question--it would relieve brigade combat team 
presence there, and we would bring them home. Currently, 
because of the fight going on there and Afghanistan being the 
number one priority right now in CENTCOM [United States Central 
Command], the two brigades that are on the ground remained. And 
the question will have to be--we are looking at options next 
calendar year when we do the turnover.
    So first brigade will come home in November. We think the 
second brigade will go winter, and the third brigade will go 
spring. And the question will be will they both go. Because 
this year the challenge was, enabler-wise, when it came to 
medevac, ISR [intelligence, surveillance and reconnaissance], 
logistics, et cetera, there wasn't enough enablers on the 
ground, air, to support two SFABs.
    So we will see if they both go and, at the end of the day, 
do we yield a brigade combat team back. And that is when we 
will start recovering readiness from a demand perspective, 
which we have not realized that yet.
    Mr. Scott. Sure. We have to have our brigade combat teams, 
but just, as I look at the world, you know, even if you just 
take--I mean, Africa is a billion people, just that one 
continent. You know, our ability to train, advise, assist and 
to put enough power into an area to have a big impact is going 
to become more and more important in the future. And I think 
that an organization smaller than a full-size BCT [brigade 
combat team], I think we are going to become more dependent on 
them in the future.
    So, gentlemen, as you know, Fort Gordon has the Cyber 
Center of Excellence. I will mention it is in Georgia. Georgia 
has been good to the Army; the Army has been good to Georgia.
    But, as we talk about cyber going forward, what steps are 
in the fiscal year 2019 budget to push the cyber capabilities 
to the tactical level to enable a multi-domain battle?
    General Anderson. It is a total Army approach. So you know 
about the 61 Cyber Mission Force teams that we have out there. 
Not all fully operational yet, but the 41 Active are. And the 
Guard and Reserve are catching up.
    But the key now, Congressman, is how do we operationalize 
cyber. So, at the strategic level, the National Mission Force, 
the Cyber Protection Brigade, both in the Guard and the Active, 
are all fully doing business. The issue is, how do you get this 
at corps and below. And that is the future growth that will 
occur fiscal year 2019 and beyond, is getting the cyber cells 
at brigade level, but how do you give brigade commanders 
operational capability to do things like knock a power grid, a 
water grid off the map without having to shoot around. That is 
where we are driving our training and capabilities, which right 
now don't exist.
    Mr. Scott. Sure. Thank you.
    My time has expired.
    General Kadavy. If I could just add to that real quickly, 
the Army National Guard has also provided all 50 States, 3 
territories, and District of Columbia an element we call the 
Defensive Cyber Operations Element to help protect the military 
network that goes into each one of the States and then also 
provide a capability to assist the States and local governments 
in cyber defense.
    Mr. Wilson. Thank you very much, Congressman Scott. And 
your testimony was so reassuring to all of us.
    We now proceed to Congressman Anthony Brown of----
    General Anderson. I am just confused, Chairman. What State 
is Congressman Scott from?
    Mr. Wilson. Well, and the only thing--equally good, Fort 
Gordon is adjacent to Aiken, South Carolina. So, indeed, 
Congressman Scott was very prescient. I agreed with every word 
he said.
    Now we proceed to somebody else I am sure I am going to 
agree with, Congressman Anthony Brown of Maryland.
    Mr. Brown. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your presence here today and your 
leadership in the Army.
    I had an opportunity to travel to Eastern Europe both in 
October and February. I was in Poland in October; I was with 
Representative Stefanik in Latvia, Estonia, and Ukraine and 
looked at some of the exciting things we are doing with the 
EDI, the European Deterrence Initiative.
    I want to ask a little bit about our permanent presence in 
Europe, but let me preface with this: It is my understanding 
that the December 2017 GAO [Government Accountability Office] 
report found that the DOD [Department of Defense] is not 
estimating EDI's long-term sustainment costs or communicating 
their future costs to Congress.
    We have a permanent presence. The vast majority of it is 
rotational, heel-to-toe. Some of it is permanent, I think a 
very small slice. There have been comments from senior 
leadership about wanting a more forward presence of a greater 
percentage, some maybe aviation units.
    It is hard for policy makers to understand how we can 
support that mission if we don't have the data that we have 
been asking for. So this is more of a comment. Please provide 
us the data as soon as we can have it.
    So I know that there are costs associated with a forward 
presence versus rotational. You have commissaries, you have 
schools. I also know that some of our allies are willing to 
bear the cost--and they already are--in delivering the 
infrastructure that would support a forward presence versus a 
rotational.
    My question is, when will the Army assess long-term costs 
for that permanent presence so that we can better compare the 
costs of rotational versus forward stationing of forces?
    And I know that General Anderson will take the bulk of that 
response, but I would also like to know, what is the impact on 
the Reserves and the Guard in terms of your getting your reps 
[repetitions] in if we go to forward versus rotational?
    General Anderson. Perfect, Congressman. Thanks. And the 
Guard will send their first--278 ACR [Armored Cavalry Regiment] 
will be the next rotation for EFP [Enhanced Forward Presence], 
but Tim can talk about that.
    We will give you all that. We have an EDI white paper, and 
the EDI white paper lays out all things Europe, from a MILCON 
[military construction] exercise, rotational force, build 
partnership capacity--all the elements of EDI.
    [The information referred to can be found in the Appendix 
on pages 45 and 49.]
    General Anderson. Our experience, Congressman, tells us, 
though, that what we have learned, when we started heel-to-toe 
rotations with 3rd Brigade, 4th ID [Infantry Division] last 
year and now 2nd Brigade, 1st ID this year, the readiness built 
by doing rotational forces versus permanent station is 10 times 
as powerful.
    And the bottom line is our commanders on the ground--we 
rotate forces through Kuwait, Europe, and the peninsula. And 
every commander says that rotational force is a more ready 
force than, in this case, 2CR [2nd Cavalry Regiment] and 173rd, 
the two Europe-stationed forward presence brigades.
    So that is why we do it, because we learn everything from 
port to foxhole, by rail, by convoy, by ship, all the border 
crossings, all the maneuver. And at the end of the day, it 
makes our Army so much better when we do it that way versus 
permanently stationed.
    We are increasing air defense over there. We are increasing 
fires over there. We are most likely going to put a corps 
headquarters over there. That is all in the works. So there 
will be some forward stationing.
    Mr. Brown. Let me just jump in here, and I know that maybe 
the response from the Guard and Reserves I will have to get in 
writing or in follow-up conversations.
    But, you know, I am always defending the cost of our 
services to my constituents. They say, hey, you take the 
second, you know, top eight spenders, Russia, China, et cetera, 
et cetera, they don't add up to the United States. And I say, 
well, that is because we have an expeditionary force, we have 
long logistics trails, we are bringing the fight to other 
continents. So we don't have--we have the cost and the benefit 
of being in the Western Hemisphere.
    But, again, we need not just the year-to-year costs of 
rotational versus permanent; we need the long-term costs. I get 
the readiness. I grew up in 1985 Army when we were defending 
the Fulda Gap, and we had 300,000 uniformed personnel in 
Germany, and we thought that we were ready to defend. And I get 
the readiness piece.
    But there is a cost to that readiness versus a permanent 
presence. And it would be good for Congress to have that 
comparison and that information. And it is my understanding 
that we are not getting that long-term estimation. We are 
getting year to year. We need long term.
    I come out of the 1985 school where I want to see more 
permanent presence, so--or more forward presence. So show me 
the numbers, and I can compare them to your readiness 
evaluations as well.
    Mr. Chairman, I have used up all my time. I yield back.
    Mr. Wilson. And thank you very much, Congressman Brown.
    We now proceed to Congresswoman Elise Stefanik of New York.
    Ms. Stefanik. Thank you, Mr. Chairman.
    I had the honor of hosting Secretary Mark Esper at Fort 
Drum just a few weeks ago. And in our discussions with family 
members but also service members, he focused on the need to 
address things that were eating up our readiness. And one of 
the examples was online training.
    What are some of those other examples of exercises, things 
that we are asking our men and women in uniform to do that are 
eating up the readiness?
    And the reason I am asking this: Because our number one 
focus is on readiness recovery, how can we address that excess, 
whether it is training, exercises? I would love your 
perspective.
    General Anderson. Ma'am, he has beaten me up over that 
every day--every day--just on email last night. Because he is 
at 1st Cav [Cavalry] Division right now, and he said the 
commanders are telling him, because of the European rotational 
requirements, behavioral health stuff, other medical issues, 
about 200 to 300 of our soldiers there probably aren't going to 
go because of theater requirements.
    So, quickly, it depends on what authoritative documents you 
are talking about, but 350-1 is the Army self-inflicted 
training requirements. We have just reduced those now down to 
individual marksmanship, PT [physical training], battle drill, 
collective tasks, and took all the other mandatory training--
and the Secretary is allowing commanders to accept risk to 
mission, risk to force.
    It doesn't mean things like SHARP [Sexual Harassment/
Assault Response and Prevention], EO [Equal Opportunity], 
suicide prevention, aren't important, but by us telling them to 
do that every year for an hour in a classroom, it is not 
working. So he is not a fan of that. He is not a fan of online 
training requirements like TRiPS [Travel Risk Planning System], 
so every time people want to go on leave or pass, they have to 
spend a whole day filling out this questionnaire, which takes 
forever. So he shut that off last week.
    But then the bigger issue becomes, what are other theater-
required issues? Like, at CENTCOM, the individual requirements 
are three pages long if you are going to deploy to the CENTCOM 
theater.
    So we are working with OSD P&R [Office of the Secretary of 
Defense, Personnel and Readiness], Mr. Wilkie's team, the Joint 
Staff, in trying to find out what would make, minus 
environmental/geographic issues like diseases and things, what 
would make Africa different than CENTCOM, different than 
Europe, for rollover drills and those kinds of things. But how 
do we get that litany of things down and say, hey, here is your 
basic requirements to get on an airplane and go.
    So it is a holistic look at everything, but when I say 
everything, it is about a 73-page document with 900-something 
tasks that we have uncovered, that he has made us do, which 
is--we will go as fast as we can to give commanders more 
flexibility.
    Ms. Stefanik. Thank you for noting the importance of 
programs like SHARP. By addressing some of the mandatory online 
training, what I thought was particularly helpful, hearing from 
Secretary Esper and our men and women in uniform, was that we 
need to have principles that we practice every single day, not 
just broken down into an hour of taking an online training 
course.
    My second question is about some of our future challenges 
when you look at 21st-century warfare. With the creation of 
Army Futures Command and the need to be ready for wars of 
tomorrow, how do you envision AI, artificial intelligence, 
being incorporated into the Army modernization priorities that 
you have already established?
    General Anderson. It fits right in with everything we were 
talking about earlier, about all the multi--it is part of our 
Multi-Domain Task Force approach from an intel, cyber, 
electronic warfare, space perspective.
    But just last week, Secretary McCarthy directed the G-2, 
ASA(ALT) [Assistant Secretary of the Army for Acquisition, 
Logistics and Technology] and myself to go out to Microsoft, 
and we are going to partner with industry to figure out how to 
go faster with AI, and not slower, as we incorporate what 
artificial intelligence will give our commanders sooner than 
later. So I think we are doing Amazon next week and we are 
doing Microsoft, like, a week or two later. But trying to learn 
from industry, who is so much further ahead of us on that, and 
figure out how to integrate into our training policies, et 
cetera.
    Ms. Stefanik. Great. I am glad to hear that. I think that 
is very important, particularly as we look at near-peer 
adversaries in terms of their investment when it comes to AI, 
and they really integrated it into their militaries, but also 
how they are approaching readiness in the 21st century and 
making sure that we have the capabilities we need.
    Thank you.
    With that, I yield back.
    Mr. Wilson. Thank you, Congresswoman.
    We will now proceed to a second round.
    General Kadavy, I was so impressed with the State 
Partnership Program and would like to know what the status of 
the State Partnership Program is and what more can we do to 
help you.
    On my visit with Prime Minister Boyko Borisov in Bulgaria, 
he just felt so comfortable with the National Guard troops 
working and training with his troops.
    I had the opportunity to visit in Tbilisi, Georgia, a joint 
parachute jump. And it is very appropriate that the State 
partnership is the State of Georgia with the Republic of 
Georgia. And then, in South Carolina, we appreciate that South 
Carolina is associated with Colombia. And so, to have people 
from Columbia go to Colombia over and over again, there has 
been a thoughtfulness here that is just amazing.
    And our State Guards being so professional, with their 
experience in Iraq, Afghanistan, now to serve around the world, 
it is so uplifting. And the American people need to know about 
this.
    General Kadavy. Thank you, Congressman, for that question. 
State Partnership Program is very important to the adjutant 
generals and to the National Guard at the bureau level too.
    My personal military opinion is that it has really grown 
over the years from what was originally intended to be an 
exchange, an engagement type program, to something that is 
under theater security cooperation. Our adjutant generals work 
very closely with the combatant commanders and with the Army 
service component commanders. So it is really a leverage now to 
not just do engagements but exercise and other partner type 
things.
    The parachute jump with the Georgia National Guard. You 
talked about Bulgaria and Romania, and you think about the 
Tennessee and the Alabama Army National Guards, which are the 
State partners, respectively, to those two States, and their 
ability to leverage their experience and their relationships to 
enhance the ability to help them develop their training, 
locations: Novo Selo, and I can't remember the other one.
    Mr. Wilson. M.K. [[Mihail Kogalniceanu].
    General Kadavy. Right. So they have worked very hard there. 
And we have rotated engineer units from Tennessee and Alabama 
through those locations again and again and again, and it has 
really helped U.S. Army Europe to engage and utilize those 
relationships. So I think it has come a long way. For what the 
cost is, I think it is very cost-effective.
    Mr. Wilson. And I've identified that I really appreciate 
President Trump's efforts on the border with Mexico to block 
the potential terrorist crossing over the--stop the human 
trafficking, to stop drug importation. And with the recent 
deployment order, can you be specific as to the type of 
activities and functions that the Guard personnel will perform? 
How many personnel will be providing this mission, and will the 
Guard members be conducting law enforcement activities, and 
will they be armed?
    General Kadavy. First, I think the President and the 
Secretary of Defense have authorized a ceiling of 4,000. I 
don't know where the final number will be. We are in support of 
the States and particularly also Custom and Border Patrol. 
There is a work group that works very closely between the 
Department of Homeland Security, the Department of Defense, 
that are validating the requirements along with the States. 
Most those missions are administrative, supportive, logistics, 
in support of CBP [Customs and Border Protection]. Also I think 
where our largest assistance is, is in aviation support in, you 
know, assisting Customs and Border Patrol as they do their 
mission there. At this point in time I'm not aware of anybody 
that is going to do direct law enforcement in support. I 
believe some Governors have authorized for self-defense, the 
carrying of weapons, but nothing in an offensive manner.
    Mr. Wilson. I am really grateful that the Governor of South 
Carolina, Henry McMaster, has been supportive from day one of 
the initiative. And the Guard members, Adjutant General Bob 
Livingston, have just been so enthusiastic about the ability to 
serve.
    I now yield to Congresswoman Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Lieutenant General Piggee, members on both sides of the 
aisle have taken a great deal of interest in the Army 
prepositioned stock program, especially with respect to support 
for U.S. Forces Korea and for U.S. Army Europe.
    So can you please briefly describe some of the initiatives 
that you are taking in fiscal year 2018 and then plan to 
undertake in fiscal year 2019 with respect to prepositioned 
stocks.
    General Piggee. Yes, ma'am. Thank you for that question. 
And as you know, our prepositioned stocks continue to be 
extremely important and provide a level of deterrence with our 
potential enemies.
    We have primarily focused on configuring our prepositioned 
stocks in a capacity where they are ready to fight tonight. By 
configuring them for combat, we think it can reduce our time to 
issue that equipment to units that will fall in from a month or 
more to days. Our goal is 96 hours. But without configuring 
that equipment to combat, for combat, we can't do that.
    This budget allows us to do that. We have started that. We 
are in the process of converting those brigades in Europe and 
in the Pacific. We expect those to be complete this fiscal 
year, and then we will extend that to other locations, to 
include sustainment brigades, which we have not been able to 
attack, because we haven't had the resources to do that.
    So this influx of additional budget will allow us to 
configure those prepositioned sets where they are prepared to 
fight tonight, able to transfer that equipment in hours vice 
weeks and almost months. And our major focus was initially 
Korea and in the European location.
    Ms. Bordallo. Thank you, General.
    And, General Anderson, I have another question for you. I 
would like to shift now from soldier readiness to theater 
missile defense and defense of our Nation. I see that the air 
and missile defense is your fifth modernization priority. Is 
that right?
    General Anderson. [Nonverbal response.]
    Ms. Bordallo. And that the service is including nearly a 
billion dollars for missile defeat and defense enhancements.
    Now, as you know, on Guam, we have a THAAD missile defense 
system. So can you please expand on changes to missile defense 
capabilities and how the budget allocations enhance national 
ballistic missile defense?
    General Anderson. Yes, ma'am. Well, the key, as you know, 
we just put THAAD on the Korean Peninsula, which was a big 
additive to what was on Guam.
    Ms. Bordallo. It was quite a struggle.
    General Anderson. It was, but a great news story at the 
end. So, from a THAAD perspective, that posture is set. The 
issue now is SHORAD [short-range air defense]. So the two other 
gaps that enhance or support ballistic missile defense are 
SHORAD and long-range fires. And those are what you also see, 
long-range precision fire, on that list of six modernization 
priorities.
    And so between growing SHORAD capability back to division 
level, a SHORAD battalion per division, and working the long-
range extension of the capability of fires from an offset 
perspective, those, combined with existing THAAD/Patriot 
capabilities, will ultimately be the way ahead.
    Ms. Bordallo. Thank you very much, General.
    And, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Congresswoman Bordallo.
    We now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. General Luckey, we spoke briefly the other day 
about your components and the impact on employers and the 
families. One of my bigger concerns as we have dealt with CRs 
[continuing resolutions] and other things is when we look at 
the Guard and the Reserve Component, as those dates approach 
and your training has to be canceled, the opportunity to fill 
that time, in some cases, isn't there.
    Could you speak to that issue briefly for us?
    General Luckey. Yes, sir. So, Congressman, as we discussed 
the other day--and my guess is that General Kadavy would have a 
similar view. One of the challenges, as you well know, in 
having any sort of lapse in funding, and as we discussed the 
other day, predictability, consistency is critical. In fact, I 
would say that, in some respects, a steady stream of less is 
better than, you know, episodic fluctuations of cash, and so I 
would just--financing.
    So I would say, first of all, lapses in funding, as you 
well know, have significant impact for the Reserve Components. 
I will speak just to COMPO-3 [U.S. Army Reserve Component 3] 
because, unlike our Active Duty counterparts, the battle 
assembly weekends are disrupted when there is a lapse in 
funding.
    Now, I want to give credit here to the G-3 [operations 
staff] of the Army, because one of the things, as I mentioned 
to you the other day, we did work our way through sort of those 
critical tasks which our formations inside America's Army 
Reserve had to continue to train to execute, admittedly for a 
short period of time during lapses in funding, but had to 
train. Because to lose that weekend for some of our 
formations--and as you well know, Congressman, that is one-
twelfth of the year from a battle assembly perspective--to lose 
that one weekend can be absolutely devastating from a medical 
readiness perspective or for some other critical function that 
has to occur then, because we can't just put it off to the next 
week because we have employers we have to deal with. We have 
families we worry about. So it is critical we execute those 
functions.
    So we have worked very closely, as a total Army, to make 
sure we are, at a minimum, making sure we put maximum focus on 
those critical things that have to happen and acknowledge that, 
in some other cases, I have to manage risk prudently.
    So anything and everything that this body can do to ensure 
consistency in funding and no further lapses I think would be a 
significant impact from a readiness enhancement perspective for 
the Army Reserve. And my guess is my counterpart, General 
Kadavy, sees it no differently.
    General Kadavy. If I could just add a couple things, 
Congressman. First, you know, I think we have all heard the 
Army National Guard Reserve Component model was 39 days a year, 
one weekend a month and 15 days in the summer. I believe our 
model, truthfully, is we share soldiers with families and 
employers, and predictability is a key part of maintaining that 
bond of trust with them. And so they make family arrangements 
and plans for the entire year around our schedule so their 
soldiers can participate in training.
    And when we cancel something, two things happen: One, many 
of the families rely on the pay and allowances associated with 
that training period. They will not get that. Although the 
resources will come later in the year, we do have the drill, 
but now they have to change plans in order to attend that 
additional drill period later in the year. So that impacts 
families. I agree with General Luckey: Our dental and medical 
readiness was impacted. We do a lot of that during the times of 
the years that the CRs--but the other thing is, as we build 
training strategies, it is a building upon one training event 
to another training event to another training event. So we miss 
it, and it messes up the strategies. We try to build readiness 
throughout the year to achieve the highest levels we can during 
annual training. So, if we miss a step, we don't always achieve 
what we are trying to do in a given year.
    Thank you.
    Mr. Scott. I am very concerned about what happens between 
now and October 1st and making sure that we get the agreement 
finished for you in a timely manner. I just hope that we are 
able to finish out the appropriations process sooner rather 
than later, especially with regard to the DOD.
    And there are a tremendous number of things going on around 
the world, and we will be doing every American a big favor if 
we can get you an appropriation sooner rather than later. We 
know what we think we are going to have at the 716, but in the 
end, it is going to require the House and the Senate to come to 
an agreement and get that signature from the President.
    So thank you for all that you do and look forward to seeing 
you.
    Mr. Wilson. Again, Congressman Scott is correct on his 
issues. And another side consequence, it is always inspiring to 
me to see the number of people who commute long distances to 
drill. Okay? And they had air costs. They had accommodations 
costs. And then they had to change their flight plans. And 
these are dedicated people who it is just inspiring to see that 
they would travel across the country to come to drill in 
another State to keep their proficiency.
    We now proceed to Congressman Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    I hope this is not a breach of protocol. I do want to thank 
General Herbert, who is in the room, for your service and I 
also really want to thank you for how great a mentor you are 
and the ability to train and direct my current MLA [military 
legislative assistant] when she was working on your team, Sapna 
Sharma, who is in the room there blushing. But she is doing a 
great job. Thank you for your service.
    If I could return to the permanent presence forward 
stationing versus rotational deployments. And, certainly, 
General Kadavy, if you could speak to what that impact is on 
the Guard, opportunities, costs, also General Luckey.
    But let me start with another preface. I spent 5 years on 
Active Duty. I commend the men and women on Active Duty. I 
couldn't do it, because I couldn't envision raising a family 
for 20 years where I would have to move them six times. So I 
commend and I thank our Active Duty members.
    But then I went to the Reserves, and it was even a more 
challenging lifestyle because of balancing my civilian job with 
my military. And, in fact, after 5 years as a Reserve aviator, 
I just couldn't do it. So I had the good fortune of being able 
to branch transfer to the JAG [Judge Advocate General] Corps, 
where I could align my civilian pursuits to my Reserve duties. 
And I know General Luckey knows all about that because he is an 
infantry lawyer himself.
    So if you could just speak to sort of like the pluses and 
the minuses of rotational versus forward from the Guard and the 
Reserve perspective.
    General Kadavy. From Army National Guard perspective, we 
see tremendous value to these rotational stationing. We talked 
a little bit about the enhanced forward presence. So we do a 
number of things. One, just from a soldier level, mobilizations 
are a retention tool for us. We get our best retention numbers 
out of units that mobilize and deploy. It is because that is 
what our young soldiers are joining to do, and they want to be 
part of the Army and the Army's missions.
    Two is, for us, because we don't do the turnover like the 
Active Component and all the PCSing [permanent change of 
station], these mobilizations, deployments, and exercises are 
really readiness enhancers, not, you know, consumption of 
readiness, because when our units return, they are still the 
units that we sent, and now they have this additional 
experience that they can't get anywhere else. So we find great 
value in that.
    Third, from the standpoint of mobilizations and the Army 
overall, there is muscle memory that we must continue to work 
and utilize, and that is the mobilization process. How you take 
soldiers and formations from a non-mobilized status, get them 
through post-mobilization training and deploy. So those are all 
great things for the Army and value from the presence.
    From the standpoint of cost, you know, the one thing I 
would note is that many of these missions are done in 12304 
Bravo versus 12304. So, when you think about the 
premobilization training and things the States are used to 
under the previous 12304 model, you can't use the overseas 
contingency operations dollars to help prepare for that 
mobilization. And so that cost--because we have got to help 
them get ready and achieve the readiness levels they need at 
the time of mobilization so they can meet all timelines. That 
then comes out of the base, and those were things that we were 
not always estimating.
    But I think we are learning. I looked at the G-3. I think 
we are learning a lot. A lot of these things are firsts. We got 
the 155 Armor Brigade Combat Team mobilizing today, going to 
Kuwait in a few months. General Anderson spoke about the 278 
and sending battalions to do EFP. We are going to learn a lot.
    Mr. Brown. General Luckey, you might want to talk about----
    General Luckey [continuing]. Yes, sir. So thank you for 
that.
    Just very briefly, so I was in Lithuania and Poland the 
week before last. And to your direct point, we are already 
doing some rotation of civil affairs capabilities and other 
things in both of those locations as a part of other operations 
and activities. And I will just tell you I think that is 
minimal risk from a sustainable perspective. I can get you the 
cost figures if it is relevant, but it is a relatively small 
footprint right now that is rotating in and out of some of 
those locales.
    The larger point, and I would put a little different spin 
on it, Congressman. As you well know, America's Army Reserve 
has a fairly significant forward presence--candidly, that is 
what it is--nonrotational, but a forward presence in Europe, 
because we have a lot of American citizens who have civilian 
jobs. And they work in Berlin, and they work, you know, in Bonn 
and other locations in Germany, and they also man our 
formations in civil affairs and signal capabilities, engineer 
capabilities, et cetera. So you have an extant capability set 
there already.
    I will tell you, looking to the future--this is a 
conversation General Cavoli and I had last week or 2 weeks ago 
in Wiesbaden. I am not sure that, as we look at force structure 
from an Army Reserve perspective and from a total Army 
perspective, what we have learned as we look through the Ready 
Force X construct, in terms of what enablers, what critical 
enablers are that theaters are going to need very quickly, I am 
not sure we necessarily got the right balance anymore for what 
General Anderson alluded to earlier as a full-spectrum decisive 
action threat as opposed to something less than that.
    So we are already partnering both with Army, from a total 
force perspective, and also specifically with USAREUR [U.S. 
Army Europe], to see whether or not we should rethink about 
some of the roles, missions, and responsibilities of Army 
Reserve structure that is currently in and will stay in Europe. 
In other words, do we have the right MOSs [military 
occupational specialties] for what the Army needs today in 
Europe. And I think that is an open conversation we will 
continue to have.
    Mr. Brown. Thank you, gentlemen.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you, Congressman Brown.
    And this has been a terrific positive hearing. I appreciate 
it so much, and we appreciate your dedication and service. Mr. 
Warren has conducted well. And I want to thank Congresswoman 
Bordallo for her service as the ranking member of the 
subcommittee.
    We are now adjourned.
    [Whereupon, at 11:10 a.m., the subcommittee was adjourned.]

    
=======================================================================

                            A P P E N D I X

                             April 19, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 19, 2018

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 19, 2018

=======================================================================

  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 19, 2018

=======================================================================
     

              RESPONSE TO QUESTION SUBMITTED BY MR. BROWN

    General Anderson. For the last year, the Army and the United States 
European Command (USEUCOM) have conducted substantive studies of the 
long term costs of rotational versus forward station presence, 
concluding an Army G-8 study in May 2017, in response to an earlier 
USEUCOM effort from 2016-2017. The conclusions of these studies are as 
follows: The 2017 USEUCOM analysis of the costs to forward station 
versus rotate an Armored Brigade Combat Team (ABCT) to Europe concluded 
that it was less expensive to forward station. The report based its 
conclusions on the assumption that a forward stationed ABCT ``in 
theater'' would fully meet the US obligation, and did not address the 
requirement to maintain a 1.0 ABCT forward presence in Eastern Europe. 
If the ABCT is stationed in Germany (instead of Poland), it does not 
meet the requirement and rotational forces are still required. To 
maintain acceptable bog/dwell ratios would still require 2x ABCTs from 
the U.S. to deploy to Poland after the forward stationed ABCT completes 
its nine month rotation and enters its 18 month dwell. Army G-8 
analysis factored all relevant transportation, personnel, permanent 
change of station (PCS), family support, and Operations & Sustainment 
costs for each scenario and determined that, 1) Rotational ABCT in 
Poland costs $565M/year (total $2.825B for Fiscal Years 2019-23); 2) 
Forward stationed ABCT in Germany and deploying from there (nine 
months) followed by two rotations of contiguous United States-based 
ABCT (to support 1:2 dwell) costs $734M/year (total $3.672 for FYs 19-
23); 3) U.S. Army could fund seven years of rotational presence in 
Poland for the cost of five years of forward stationing; and 4) The 
Army study concluded that there is no cost advantage inherent to 
forward stationing an ABCT in Germany. U.S. Army Europe (USAREUR) 
continues to analyze and develop stationing options to accommodate 
potential growth coming from the Total Army Analysis 20-24. It is the 
current position of USAREUR that adding a permanently stationed ABCT 
would do little to increase its deterrence posture, and that any 
valuable basing space would be better utilized housing necessary combat 
enablers. European Defense Initiative (EDI) funds enable the National 
Guard and Army Reserve, independent of forward stationed or rotational 
force, to support the Army's efforts to build partner capacity for 
newer NATO members and increase USAREUR's capability, which is 
essential to meeting the sustainment demands of the deterrence mission 
in Europe. Reserve Component support is planned across the Future Years 
Defense Program at similar levels to FY19. Please see attached Army EDI 
Information Paper for additional context.   [See pages 14 and 45.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 19, 2018

=======================================================================
     

                    QUESTION SUBMITTED BY MR. SCOTT

    Mr. Scott. What is the status of the SEP report on the efforts of 
the Army to reduce the weight of personal protective equipment (PPE) 
and organizational clothing and individual equipment (OCIE) which was 
directed in the FY17 NDAA? It is our understanding that the 25th ID has 
completed the field testing and the report has been compiled. 
Representative Scott would like to receive a copy of the SEP report on 
the efforts of the Army to reduce the weight of personal protective 
equipment (PPE) and organizational clothing and individual equipment 
(OCIE).
    General Anderson. As requested, we will provide your office a copy 
of the briefing which was sent to all four defense oversight committees 
and briefed to House Armed Services Committee professional staff 
members in July, 2017, as required by House Report 114-537.
    [The briefing referred to is retained in the committee files.]

                                  [all]
</pre></body></html>
